fr
i

r sa
No^

Supreme Court, U.S.
FILED

AUG 1 7 2020

IN THE
SUPREME COURT OF THE UNITED STATES

j

OFFICE OF THE CLERK

JUDY THORPE
Plain tiff-Pe titioner,
vs.
JUSTIN SWIDLER, ESQ.; KARPF, KARPF & VIRANT, PC; and JOHN DOES 1100, individually, jointly and severally,
Defendants -Respondents.

On Petition for Certification to the
Supreme Court of New Jersey

PETITION FOR WRIT OF CERTIORARI

Respectfully submitted by:
Judy Thorpe
Pro Se Petitioner
102 Harbor Circle
Freehold, New Jersey 07728
Phone: 1.732.303.0585
Email: nurseiudvmae@gmail.com
August I *7^* 2020.

RECEIVED

m 20 2020
-SUPREMF^fo^pK

u

G)
QUESTION(S) / ISSUES PRESENTED

l.

Whether it was manifest error and significantly prejudicial for the Supreme
Court of New Jersey to Deny Certification and Not Fairly and Equitably
Review the Erroneous Decisions of the Appellate Division and the Trial
Court.

l

GO
LIST OF PARTIES
Petitioner submits that all parties appear in the caption of the case on the cover
page, and are listed below for the Court’s reference:

Petitioner:

Judy Thorpe

Respondents'

Justin Swidler, Esq.
Karpf, Karpf & Virant, PC
John Does 1-100

2

Gii)
TABLE OF CONTENTS
QUESTION/ISSUES PRESENTED

i /1

LIST OF PARTIES

ii/2

INDEX TO APPENDICES

iii / 3

TABLE OF AUTHORITIES CITED

iv/4

OPINIONS BELOW

5

JURISDICTION

5

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

17

CERTIFICATE OF COMPLIANCE

18

INDEX TO APPENDICES
APPENDIX “A”

Order Denying Motion for Reconsideration. Supreme

Court of New Jersey. Dated June 3, 2020.
APPENDIX “B”

Order Denying Petition for Certification. Supreme Court

of New Jersey. Dated September 23, 2019.
APPENDIX “C”

Opinion of Affirmance. Superior Court of New Jersey —

Appellate Division. Dated May 7, 2019.
APPENDIX “D”

Order(s) Denying Leave File an Amended Complaint and

Dismissing the Complaint. Superior Court of New Jersey.

3

(iv)
TABLE OF AUTHORITIES CITED
Page Number
CASES
Bonczek v. Carter-Wallace, Inc., 304 N.J. Super. 593, 602

12

Conley v. Gibson, 355 U.S. 41 at 48

8

Guy v. Crown Equip. Corp., 394 F.3d 320, 325

9

Haines v. Kerner, 404 U.S. 519, 92 S.Ct. 595, 30 L.Ed.2d 652

8

Kernan v. One Washington Park Urban Renewal Assocs.,
154 N.J. 437

12

Notte v. Merchs. Mut. Ins. Co., 185 N.J. 490, 501

12

Venegas -Hernandez v. Sonolux Records, 370 F.3d 183, 195

9

Young v. Sobering Corp., 645 A.2d 1238, 1243

10

STATUTES AND RULES
Rule 4:9-1

11, 12

4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
The opinion of the highest state court to review the merits appears at Appendix
A to the petition and is found at Judy Thorpe v. Justin Swidler, Esq. andKarpf, Karpf
& Virant, PC, No. 083037, dated June 3, 2020. No. 19-3385. Supreme Court of New
Jersey.
JURISDICTION
The date on which the highest state court decided the merits of the case was
June 3, 2020. A copy of that decision appears at Appendix A.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a), which
provides^ “Final judgments or decrees rendered by the highest court of a State in
which a decision could be had, may be reviewed by the Supreme Court by writ of
certiorari where the validity of a treaty or statute of the United States is drawn in
question or where the validity of a statute of any State is drawn in question on the
ground of its being repugnant to the Constitution, treaties, or laws of the United
States, or where any title, right, privilege, or immunity is specially set up or claimed
under the Constitution or the treaties or statutes of, or any commission held or
authority exercised under, the United States.”
5

CONCISE STATEMENT OF THE CASE
On or about April 6, 2005, Petitioner, a long-standing forensic nurse,
transferred to the New Jersey Juvenile Justice Commission as a regional supervisor
of nursing services, where she successfully directed nursing services in seven secure
environments for a newly developing medical department. In this role, Petitioner
coordinated the operations and patient care activities of a multi-site healthcare
delivery system, serving approximately 2,000 patients.

In 2008, Petitioner was

unlawfully and wrongfully terminated from her position.
Disputing her wrongful termination, Petitioner filed an administrative
complaint with the Equal Employment Opportunity Commission, which was pending
at the time she retained Respondents to represent her. Relying on Respondents’
advice and representations that they were going to instead file a federal lawsuit,
Petitioner withdrew the administrative complaint.

However, Respondents never

prepared nor did they ever file a federal complaint.
The Division of Civil Rights set a disciplinary hearing for June 25, 2008.
Petitioner advised Respondent Swidler that at the July 25, 2008 disciplinary hearing,
the opposing parties emphasized the wrongful claim that Petitioner refused to
consent to a psychological fitness-for-duty evaluation. Instead of properly contesting
the reasonableness of the psychological fitness-for-duty examination, Respondents
advised Petitioner that she should take a psychological evaluation.

Relying on

Respondents’ advice, Petitioner was scheduled for an evaluation with Dr. Felice
Massey, M.Ed. The results of the evaluation, submitted directly to Respondents,
were favorable to Petitioner. Unfortunately, by the time the favorable results were
6

submitted to Respondents, the Division had already issued its recommendation(s)
based on the disciplinary hearing testimony and as a result, Petitioner was
terminated from her position.
Petitioner appealed the decision. On or about May 14, 2009, the Civil Service
Commission rendered its final decision in Case No. 06-124. In said decision, the
Commission denied Petitioner’s appeal. Petitioner immediately notified Respondents
of same.
Arbitration was held in the matter on December 10, 2009.

Respondents

advised Petitioner to proceed with the arbitration since this would show that she had
exhausted all of her administrative remedies, which would look favorably on her in
the LAD lawsuit. The unfavorable arbitration order and award was communicated
to Petitioner by a paralegal working for Respondents. In fact, Respondents never
advised Petitioner of her right to appeal the arbitration ruling.
As a result of Respondents’ negligent representation of Petitioner, on
December 12, 2016, Petitioner filed her Complaint against Respondents in the
Superior Court of New Jersey, Law Division, Mercer County.

In said action,

Petitioner alleged causes of action for professional negligence, legal malpractice,
breach of contract, breach of fiduciary duty, fraud and/or other causes of action
allowed by law. Instead of answering the complaint, Respondents immediately filed
their motion to dismiss on April 27, 2017. On July 10, 2017, Petitioner filed a cross­
motion to extend time to file an amended complaint. On July 12, 2017, Petitioner
filed her motion to amend complaint. Oral arguments on both the motion to dismiss
and motion to amend complaint were set and had on July 21, 2017. The trial court
7

issued its oral ruling on July 28, 2017. A formal order followed. See Appendix D.
Petitioner timely appealed to the Appellate Division, under Docket No. A-0649-17T3,
which affirmed the lower court’s order of dismissal and denial of leave to amend on
May 7, 2019. See Appendix C. Petitioner then sought certification from the New
Jersey Supreme Court, which was denied on September 26, 2019. See Appendix B.
Petitioner sough reconsideration and clarification of the denial, which again the New
Jersey Supreme Court denied on June 5, 2020. See Appendix A.

PETITIONER’S PRO SE STATUS
Indigent and unrepresented litigants have a right to the fair and impartial
review of their claims and defenses. An important issue of fairness in our judiciary
is raised in this case, in the course of which Petitioner has been a victim of grave
injustice and has been forced to represent herself as an indigent, pro se litigant.
Petitioner thus respectfully requests that the statements of her case be given
due and equitable consideration, with reasonable lenience, with respect to precedence
set by existing case law, to include but not be limited to, the standards of perfection
and defense against dismissal. See Haines v. Kerner, 404 U.S. 519, 92 S.Ct. 595, 30
L.Ed.2d 652 (1972) and Conley v. Gibson, 355 U.S. 41 at 48 (1957).
Here, as argued below, the Superior Court and Appellate Division applied the
wrong law and incorrectly calculated the statute of limitations. Litigants have a right
to a fair and impartial review of their claims and defenses. This case raises an
important issue of fairness in our judiciary, especially in circumstances such as here,
where an aggressive lawyer is actively defending against claims put forth by a pro se
8

litigant.

REASONS FOR GRANTING THE PETITION
It was manifest error and significantly prejudicial for the Supreme Court of New
Jersey to Deny Certification and Not Fairly and Equitably Review the Erroneous
Decisions of the Appellate Division and the Trial Court.
The Superior Court’s order denying Petitioner leave to amend and of dismissal
and the subsequent Appellate Division’s affirmance of same constitute manifest
error. Further prejudicial to Petitioner is the fact that the Supreme Court of New
Jersey denied certification and refused, even after Petitioner proffered sufficient
evidence in support of reconsideration, to grant certification upon reconsideration
and reargument.
"'Manifest error’ is one that 'is plain and indisputable, and that amounts to a
complete disregard of the controlling law.’" Guy v. Crown Equip. Corp., 394 F.3d 320,
325 (5th Cir. 2004) (quoting Venegas -Hernandez v. Sonolux Records, 370 F.3d 183,
195 (1st Cir. 2004)); See Black's Law Dictionary 563 (7th ed.1999). Other authorities
have defined manifest error as “an error that is obvious and indisputable, that
warrants reversal on appeal. It is an indisputable error of judgment in complete
disregard of the facts of the case, the applicable rule or law and credible evidence.”
See uslegal.com.
The trial court denied Petitioner’s motion for leave of court to file amended
complaint, and the Appellate Court affirmed the denial in its May 7, 2019 Opinion.
The New Jersey Supreme Court subsequently denied certification.
9

The appellate courts, in upholding the dismissal and denial of leave to file
amended complaint have relied on the trial court’s reasoning, particularly based on,
in part, as the trial court stated: “Plaintiff could not have prevailed in any of her
claims regardless of defendants’ actions.” Further, the trial court concluded that
Petitioner’s “...late allegations and numerous new facts would prejudice the defense.”
Petitioner submits that this finding was clearly erroneous and prejudicial
In affirming the denial of leave to amend, the Appellate Division relied on
Young v. Sobering Corp., 645 A.2d 1238, 1243 (App. Div. 1994) affd, 141 N.J. 16, 660
A.2d 1153 (1995). In Young, the Court found that “the allegations in a proposed
amended complaint constituted an entirely different cause of action and therefore
could not relate back to the original file date because the proposed amended
complaint pled entirely new facts to support the claim.” Here however, Petitioner’s
proposed amended complaint, though varied in format than the original complaint,
did not bring forth new causes of action which were unknown or prejudicial to
Respondents. Petitioner’s proposed amended complaint dealt with the same facts,
parties and circumstances supporting her claims for legal malpractice/negligence.
Thus, Young was clearly distinguishable, and it was an abuse of discretion to rely
heavily on it in denying leave to amend and granting a dismissal with prejudice.
It was also reasoned that affirmance was warranted because of the statute of
limitations.

However, a clear review of the record reveals that the statute of

limitations was not expired at the time Petitioner filed her proposed amended
complaint. In the filed transcripts, the Court stated that Petitioner indeed had not
exceeded the statute of limitations to proceed with her legal malpractice claims.
10

However, in doing so, the lower court’s references to the timing of Petitioner’s actions
were vague and inaccurate.
By law, the six-year statute starts from the time discovery is made. During
the July 21, 2017 oral argument, the lower court referred to “early 2011” as the time
when Petitioner read the summary judgment transcript.

The lower court’s

approximation disadvantaged Petitioner! official documentation on the record
clarifies that “early 2011” was actually September 22. 2011. at the earliest, when the
summary judgment transcript was ordered. It was then sent to the Court and
Petitioner’s then attorney, Mr. Michael Nelson, on October 20, 2011, and stamped as
received by the Court on October 25, 2011. Petitioner maintains that it was not until
the document(s) was transferred to her subsequent attorney, Mr. Mark Fury, that
Petitioner was privy to its entire contents, leading to her discovery of the detrimental
actions on the part of Respondents. In fact, Petitioner has acted within the time
allotted by the statute of limitations and must not be time-barred from pursuing her
case to its fullest extent. The lower court’s finding that Petitioner’s claims were
somehow time-barred is completely erroneous and warrants this Court’s review.
Further, Petitioner submits that the Appellate Division and the Supreme
Court of New Jersey failed to require the trial court to properly apply the standards
set under Rule 4:9-1.
Rule 4:9-1 provides: A party may amend any pleading as a matter of course at
any time before a responsive pleading is served or, if the pleading is one to which no
responsive pleading is to be served, and the action has not been placed upon the trial
calendar, at any time within 90 days after it is served. Thereafter a party may amend
ll

a pleading only by written consent of the adverse party or by leave of court which
shall be freely given in the interest of justice.
The New Jersey Supreme Court has "made clear that 'Rule 4:9-1 requires that
motions for leave to amend be granted liberally' and that 'the granting of a motion to
file an amended complaint always rests in the court's sound discretion.'" Notte v.
Merchs. Mut. Ins. Co., 185 N.J. 490, 501 (2006) (quoting Kernan v. One Washington
Park Urban Renewal Assocs., 154 N.J. 437, 456-57 (1998)). Although motions to
amend "are ordinarily afforded liberal treatment, the factual situation in each case
must guide the court's discretion, particularly where the motion is to add new claims
or new parties late in the litigation." Bonczek v. Carter-Wallace, Inc., 304 N.J. Super.
593, 602 (App. Div. 1997). Here, the trial court made no findings as to how it came
to the conclusion that Petitioner’s claims and factual allegations were “late.” Nor did
the trial court offer any explanation as to how the Respondents would be prejudiced
by the filing of the first amended complaint. Discovery had not yet even started. It
is further undisputed that a trial date had not been set. Thus, the underlying case
was still in the early stages of litigation. The trial court only had pending a motion
to dismiss, filed by Respondents, and Petitioner’s motion for leave to amend.
Additionally, this was Petitioner’s first request for leave to amend. Thus, it was clear
error to deny Petitioner leave to amend.
The Appellate Division and the trial court made much of the finding that the
proposed amended complaint was, according to the trial court, “entirely unlike the
previous complaint in style and content.”

A review of the amended complaint

indicates that the style of the complaint is in fact different. Petitioner testified at
12

oral argument on July 21, 2017 that she had hired a paralegal service to type up the
complaint. The paralegal service drafted the complaint in compliance with the rules
of procedure. Petitioner provided the paralegal service with the factual allegations,
all of which were included in the amended complaint. No new claims were asserted
in the amended complaint, contrary to the Court’s findings. Though the formatting
and structure of the amended complaint was different than Petitioner’s original
complaint, the amended version in no way was significantly different as to give rise
to making new claims against Respondents. Respondents were put on due notice,
even with the additional factual allegations that supported Petitioner’s legal
malpractice claim.
Petitioner’s proposed Amended Complaint, accompanied by exhibits, when
given a generous reading, clearly suggest a cause of action for legal malpractice.
Respondents failed to assert expert testimony and reports as crucial material
evidence related to the psychological fitness evaluation performed on Petitioner in or
around August of 2008; failed to secure depositions of key expert witnesses in support
of Petitioner’s claims and defenses; and failed to properly investigate expert
testimony key to Petitioner’s claims and defenses. Additionally, Petitioner proffered
sufficient allegations in the complaint and proposed amended complaint that
supported the fact that several different individuals, working under the care and
control of Respondents handing Petitioner’s LAD case, mismanaged the effective
prosecution of Petitioner’s claims. Regardless of whether or not the trial court
“believed” that Petitioner would have likely lost her LAD case, the trial court was
under an obligation to follow the standard of review on a motion to dismiss. This was
13

not done, and it was manifestly erroneous and unjustly prejudicial to Petitioner for
the New Jersey Supreme Court to deny certification and further review of this case.
Respondents could, and should, have fought Petitioner’s’ employers’ distortion
of Dr. Russell Holstein’s recommendations for her therapy. His professional advice
was misrepresented to allege that Petitioner was the one psychologically unfit, but
this was untrue; Dr. Holstein’s recommendations were because of Petitioner’s hostile
workplace and had nothing to do with any lack in Petitioner’s own psychological
fitness. Dr. Holstein even recently himself affirmed that, had he been deposed, he
would have contested the misrepresentation of his professional advice and
maintained that Petitioner was psychologically fit.

This would have all gone to

disprove her employers’ claims, exposing their lack of credibility, and strengthened,
even won, Petitioner’s case. However, Respondents neglected to depose Dr. Holstein
for his expert witness testimony, and the Court’s decision unfairly assumed that the
Respondents’ addressing of this matter in their own words, “without the weight and
credentials of a medical professional in person,” was adequate. Rather, this proves
that Respondents did not thoroughly pursue a credible and critical lead in support of
Petitioner’s claims and defenses in the underlying LAD case. The true flaw now is in
the Court’s assumption that Respondents could not have done any better to win the
case. To the contrary, had Respondents upheld their ethical and professional duty
with due diligence, the truth of Petitioner’s employers’ deceit and the unlawfulness
surrounding Petitioner’s termination could have been proven, and thus Petitioner
would most likely have prevailed.
Likewise, Respondents could have disproven the legitimacy of the nine
14

complaints that Petitioner’s employers alleged among their reasons to terminate.
Respondents in fact never prepared with Petitioner to dispute these complaints in
detail (thereby rendering them, to this date, hearsay). Yet, Respondents claimed to
have addressed this issue in court in Petitioner’s defense. It is then hypocritical, and
ethically questionable, for their attorney to now stipulate on their behalf in oral
argument that those complaints were valid support for Petitioner’s opponents’ case
to terminate.
In addition, the stipulations that Petitioner’s Union attorney made during her
employment case must not be deemed indisputable, authentic, or factual, as they are
currently being contested, along with the findings in that case’s summary judgment.
This includes, but is not limited to, the summary judgment’s upholding that the sick
leave policy which was referenced in support of Petitioner’s termination was valid.
Again, Respondents claim to have acted in the best interest of Petitioner, but now,
through the duration of this case, they are presenting those very issues to attack
Petitioner and her case, and the Court has unfairly accepted it. If Respondents had
believed even then, that Petitioner’s case was fundamentally flawed by these matters,
they were deceitful in their professional agreement to act in her best interest, and
then failing to do so in full faith throughout the entire course of the case. This deceit
and fraud certainly would speak to legal malpractice, as properly alleged in
Petitioner’s proposed amended complaint.
Also speaking to legal malpractice was the Respondents’ lack of competence,
which the Court’s decision never allowed Petitioner to fully call into question and
scrutiny. Be it noted that the current Respondents at Karpf & Karpf, P.C. filed a
15

r

complaint to the Attorney Ethics Grievance Committee against Adam Virant, Esq.,
then a partner, for his mishandling of clients’ information and money beginning in
2009. Petitioner further became aware that he was not licensed to practice in New
Jersey and was removed from the firm sometime between 2010 and 2012. The
existing record shows how Mr. Virant had possessed and handled material evidence
in Petitioner’s case, including her favorable psychological fitness-for-duty evaluation,
which the firm had then appeared unable to present in a timely manner. As the
timing of Petitioner’s case coincided with this period of internal conflict within the
Respondents’ firm, the mishandling of crucial materials for Petitioner’s case is at the
very least questionable in regards to the ethical, diligent, and competent conduct of
the defendants, providing more support for why Petitioner should have been granted
leave to amend.
Lastly, simply because one believes that Petitioner “would not have prevailed”
and that “Respondents’ actions, right or wrong could not change the deficiencies in
plaintiffs claims” that does not give the lower courts license to misapply well
established law and standards of review, which clearly allow the liberal granting of
leave to file amended pleadings.

As officers of the Court, Respondents had an

affirmative duty in the LAD case to actively prosecute and defend Petitioner’s claims.
They failed to do so. Respondents had an affirmative duty to advise Petitioner of all
possible legal options. They failed to do so. Respondents had an affirmative duty to
represent Petitioner’s best interests in the course of litigation. They failed to do so.
It is only when Officers of the Court are held to the professional standards which
govern the practice of law will litigants truly believe in the notion of a fair and
16

\

impartial judiciary dedicated to justice and the pursuit of truth.
Accordingly, the petition for Writ of Certiorari should be granted.

CONCLUSION
For the reasons herein, the petition for writ of certiorari should be granted.

Dated: August \

iS. 2020.

Respectfully submitted,

A
Pro Se Petitioner
102 Harbor Circle
Freehold, New Jersey 07728
Phone: 1.732.303.0585
Email: nurseiudymae@srmail.com

17

CERTIFICATE OF COMPLIANCE
I, Judy Thorpe, Pro Se Petitioner, hereby certify that, according to the wordcount tool in Microsoft Word, the foregoing Petition for Writ of Certiorari consists of
3,664 words, including footnotes and excluding the sections enumerated by Rule
33.1(d).
The Petition therefore complies with Rule 33.1(g).

-IV -

Judy Thorpe'
Pro Se Petitioner
102 Harbor Circle
Freehold, New Jersey 07728
Phone: 1.732.303.0585
Email: nurseiudvmae@gmail.com

18

